US Department of Labor
  Office of Inspector General

  Evaluation Report No. 03-03-008-03-330
             September 4, 2003
       Evaluation Objective

Address the Congressman’s concerns
pertaining to Pennsylvania’s (PA) TAA
Program funding FY 2001-2003
!    Specifically the $11.5M funded in
     March of 2003 and amount of
     overspending in the program



               USDOL/OIG Evaluation      2
                   Evaluation Scope
!   TAA Eligibility and Program Benefits

!   PA’s Individual Process and Statistics

!   TAA Funding Received and Expended FY 2001 to June 2003

!   PA’s Use of $11.5M

!   TAA Funding Shortage (PA and National)

!   Evaluation conducted in accordance with Quality Control Standards for
    Inspections published by the President’s Council on Integrity and Efficiency

!   Our evaluation was not designed to evaluate the Employment and Training
    Administration’s (ETA) or PA’s internal controls or compliance with laws and
    regulations, and, accordingly, we give no assurance on controls or compliance.

                              USDOL/OIG Evaluation                                 3
          Evaluation Methodology
!   Obtained background on how the Trade Act Program
    operates
!   Interviewed U.S. Department of Labor (DOL) ETA
    officials
!   Obtained DOL ETA internal review of PA TAA funding
!   Obtained and reviewed financial reports at ETA and
    PA Department of Labor & Industry (L&I)
!   Reviewed a sample of vendor invoices supporting
    PA’s use of TAA funds awarded in FY 2003
!   Interviewed PA L&I officials


                       USDOL/OIG Evaluation              4
            Evaluation Results
!   There has been funding problems for PA’s TAA
    programs going back to FY 2001
!   The $11.5M was used for FY 2003 Expenses
!   PA’s TAA funds were spent on TAA Program
!   National Emergency Grants (NEGs) were awarded to
    make up shortages that occurred for FY 2001
    through FY 2003
!   PA still has a deficit of $2.6M for FY 2002
!   There may be a National TAA funding shortage
    through December 2003

                   USDOL/OIG Evaluation           5
                     Background
                    How to Apply for TAA
!    File Petitions:
    1.   Group of three or more workers’
         signatures required

    2.   Union or Company officials only requires
         one worker’s signature

    3.   All petitions filed with ETA’s Division of
         TAA


                       USDOL/OIG Evaluation           6
                        Background
                   Establishing Eligibility for TAA
!       Certificate Regarding Eligibility Requires:

    !     ETA’s Division of Trade Adjustment Assistance
          conducts investigation; issue notice of decision
          no later than 40 days after receipt of petition

    !     Workers have been totally or partially laid off
          because of increased imports

    !     Workers hours or wages are reduced to 80% or
          less of weekly average


                           USDOL/OIG Evaluation              7
                          Background
                           Program Benefits
!        Retraining and Reemployment Services to
         meet individual worker’s needs:

    1.     Receive 104 weeks of approved training

    2.     Receive 104 weeks of income support in addition
           to basic Unemployment Compensation (UC)
             !   26 weeks for basic UC
             !   26 weeks for basic Trade Readjustment Allowance (TRA)
             !   52 weeks for additional TRA (implemented Trade Act of
                 2002)
             !   26 weeks for participants taking remedial education
                 (week for week, e.g., 10 weeks remedial education, 10
                 weeks of TRA) implemented Trade Act of 2002


                             USDOL/OIG Evaluation                        8
                   Background
             Program Benefits (Continued)

3. Job search and relocation allowance up to $1,250
   may be payable in seeking employment outside
   normal commuting area

4. Reemployment Services:
      •   Career Counseling
      •   Job Placement Assistance
      •   Supportive Services
      •   Skill Assessment
      •   Job development and job search assistance and referrals


5. Rapid Response Assistance and Basic
   Readjustment Services informing workers that
   they are eligible to petition TAA program
                       USDOL/OIG Evaluation                         9
                                  Background
                              Pennsylvania’s TAA Process

!   PA Department of L&I’s Rapid Response and
    Trade Division Administers TAA in PA

    !   After ETA Certifies the Petitions the Rapid Response and
        Trade Division sends a letter to all eligible workers.

    !   Eligible workers receive basic Workforce Investment Act
        (WIA) services at the Career Link Centers (one-stop local
        office), such as: resumé workshops, job search,
        employability assessment, etc.

    !   If suitable employment is not found – worker and local
        office develops a training plan.
                                 USDOL/OIG Evaluation               10
                      Background
           Pennsylvania’s TAA Process (Continued)


!   Training plan sent to the Rapid Response
    and Trade Division in Harrisburg
     !   Trade Division considers curriculum, cost and
         location
     !   Plan approved
     !   Addendum to the Master Agreement prepared
     !   Funds obligated for total training costs (expense
         incurred over multiple years)
!   Participants start training
!   Vendor invoices are submitted for
    payment


                          USDOL/OIG Evaluation               11
                                           Background
                                Commonwealth of PA Statistics
                                        FY 2001                FY 2002                    FY 2003

Petitions Certified                        224                    241                        109
Workers Certified                        60,018                 50,113                     20,712
Participants in Training                  4,939                  8,114                   7,883     (2)

TAA Funding Received                  $6,934,500             $5,186,500                $29,631,981
NEG Funding Received                  $6,805,383            $25,980,330              $21,209,552(3)

Total Funding Received               $13,739,883          $31,166,830(1)               $50,841,533

(1) Does not include $ 2,647,569 the state has to fund
(2) 6,790 actual participants plus 1,093 participants that PA estimated for the remainder of FY 2003
(3)$8,624,645 received plus $12,584,907 authorized by ETA as of June 30, 2003




                                             USDOL/OIG Evaluation                                        12
      Unfunded Obligations for FY 2003
Date          Cumulative      Cumulative       Total
Ending        TAA Funds       Obligations      Cumulative
              Received                         Unfunded
                                               Obligations
12/31/2002 $4,485,000     $51,137,697          $(46,652,697)
                          *
3/31/2003     $21,735,000 $62,946,419          $(41,211,419)

6/30/2003     $29,631,981 $58,564,183          $(28,932,202)

*$33,033,883 worth of obligations that had not been expensed
in FY 2002 were rolled over to the Trade Grant for FY 2003


                        USDOL/OIG Evaluation               13
         Average Obligations Per Participant

                  FY 2001          FY 2002     FY 2003
    Total
 Obligations     $37,083,455 $64,716,298 $20,406,713
 Established
 Number of
 Participants
Approved for       2,852              5,367     1,677
  Training
  Average
Obligation Per    $ 13,003          $ 12,058   $ 12,169
 Participant
                       USDOL/OIG Evaluation             14
                        PA’s TAA Funds
                     Requested vs. Received
                                                               !   FY 2001
140                                                                 !   Requested $13M
                                                                    !   Received $6.93M
120                                              TAA
                                                 Requested
                                                                    !   Obligations $37.08M

                                                 TAA
100                                              Received      !   FY 2002
                                                 Obligations        !   Requested $26.52M
                                                                        Received $5.19M
 80
                                                                    !

                                                                    !   Obligations $64.72M

 60
                                                               !   FY 2003
                                                                    !   Requested $66.97M
 40                                                                 !   Received $29.63M
                                                                    !   Obligations $20.4M
 20
                                                               !   Cumulative Total
  0                                                                 !   Requested $106.49M
      FY 2001   FY 2002   FY 2003   Cumulative
                                                                    !   Received $41.75M
                                                                    !   Obligations $122.2M
                                      USDOL/OIG Evaluation                                    15
 What specifically did the Commonwealth do with the
 $11.5 million that was recently transmitted to them
 for TAA job training?
The $11.5M was used for FY 2003 expenses
  ! Reviewed 2 Voucher Transmittals

     !   200 Invoices—each indicated TAA services
         performed and expenses incurred in FY
         2003
     !   As of June 16, 2003, ~$8.7 M of the $11.5M
         was expended




                      USDOL/OIG Evaluation             16
          PA’s TAA FY 2003 Cash Disbursements
                       Oct 2002—June 16, 2003

6

5

4                                                                Total
                                                                 Disbursements

3

2

1

0
    Oct    Nov   Dec    Jan   Feb   March   April   May   June



                                USDOL/OIG Evaluation                       17
PA’s Funds Spent on TAA Program
!   Decisions of L&I Officials
        !   Used funds to pay invoices for TAA related expenses
            for FY 2003
        !   Recognized shortage and requested additional
            funding
        !   Suspended the program until additional funds were
            granted

!   Based on our review of 200 invoices and PA
    Comptroller Records we concluded that TAA
    Current FY 2003 Funds were spent in accordance
    with grant requirements

!   TAA Grant Modification did not specify that funds
    be spent on new and future training
                          USDOL/OIG Evaluation                    18
           Pennsylvania’s TAA Funding
                    Shortage
!   FY 2001
       !   $6.8 million


!   FY 2002
       !   $25.9 million


!   FY 2003
       !   $21.2 million


!   Funding from National Emergency Grants
    were used to address TAA funding shortages
                           USDOL/OIG Evaluation   19
Pennsylvania’s TAA Funding
         Shortage

!   FY 2002

    Outstanding $2.6M Deficit

    !   State will have to fund the $2.6M deficit




                    USDOL/OIG Evaluation            20
        National TAA Funding Shortage

!   ETA Survey—States’ Funding Needs
         !   April 2003 thru December 31, 2003


    !   $219.5M states’ funding needed through
         December 31, 2003

    !   $65M available for TAA and NAFTA-TAA
         through September 30, 2003


                       USDOL/OIG Evaluation      21
     Added Major Features to Program
!   Secondary companies are now eligible for
    TAA

!   Alternative TAA (ATAA) program for workers
    over 50 years of age

!   Health Insurance Benefits available to 3
    groups:
       !   TAA participants eligible for income support
       !   ATAA participants
       !   PBGC recipients

                          USDOL/OIG Evaluation            22
